PROOF OF SERVICE
I, the undersigned, declare that I am over the age of
eighteen (18) years and not a party to the within action. My
residence address is 9950 Topanga Canyon Blvd., #85,
Chatsworth, CA 91311, and I am a resident of the County of Los
Angeles. On March 11, 2021, I served the foregoing:

PETITION FOR WRIT OF CERTIORARI

[ X ] BY MAIL: I placed a true copy of the documents
indicated above in sealed envelopes, with first-class postage
thereon fully prepaid. I then placed such envelope for deposit in
the United States Postal Service this same day in the County of
Los Angeles, State of California. The addressees for such
envelopes were the following:
Gregory G. Lynch, Esq.
Lewis, Brisbois, Bisgaard & Smith LLP
633 West 5th Street, Suite 4000, Los Angeles, CA 90071

Kenneth R. Pedroza, Esq. and Dana L. Stenvick, Esq.
COLE PEDROZA LLP
2295 Huntington Drive, San Marino, CA 91108

I declare, under the penalty of perjury under the laws of
the United States, that the foregoing is true and correct.
Executed on this 11th day of March 2021.

Name: Malini Mehta
15
Petition for Writ Certiorari

